         U.S. Department of Energy
         Office of Inspector General
         Office of Inspections




Inspection Report

Inspection of Nuclear Safety
At The Ashtabula Environmental
Management Project




DOE/IG-0576                            November 2002
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                       November 26, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman /s/
                         Inspector General

SUBJECT:                 INFORMATION: Report on “Inspection of Nuclear Safety
                         at the Ashtabula Environmental Management Project”

BACKGROUND

The Office of Inspector General, U.S. Department of Energy (DOE), conducted an inspection to
review issues related to nuclear safety at the Department’s Ashtabula Environmental
Management Project (Ashtabula) in Ashtabula, Ohio. The Ashtabula Site is owned by the RMI
Titanium Company (RMI) and is comprised of two facilities, the Extrusion Plant and the Metals
Plant. Radioactive processing activities at the Extrusion Plant are regulated under a nuclear
license issued by the Ohio Department of Health. The license only covers the Extrusion Plant
and not the Metals Plant.

The objectives of this inspection were to determine:

   •   In the absence of a nuclear license covering the Metals Plant, was radiological
       work conducted in accordance with DOE nuclear safety procedures; and

   •   Whether RMI commercial work conducted with DOE equipment occurred
       without a proper license and without proper nuclear safety procedures in place.

RESULTS OF INSPECTION

We concluded that radiological work at the Metals Plant and commercial work with DOE
equipment was not covered by a license or DOE nuclear safety procedures. A nuclear license or
procedures implementing DOE regulations is necessary and required to promote nuclear safety.
At Ashtabula, the question of which safety requirement should have been in place, either a
nuclear license or DOE regulations, was unclear because RMI owns the Ashtabula Site. The
attached inspection report raised this issue to the appropriate officials for resolution. They
subsequently provided clarification of the jurisdictional issues.
We recommended that the:

    •   Office of General Counsel determine the applicability of DOE regulations at the
        Ashtabula Site;

    •   Office of Price-Anderson Enforcement determine whether DOE regulations have been
        violated at the site; and

    •   Ohio Field Office address issues relating to compliance with nuclear safety regulations
        and the use of DOE equipment to perform radiological work.

MANAGEMENT REACTION

Management comments were responsive to the recommendations. The Office of General
Counsel determined that DOE nuclear safety requirements did not apply to contractual activities
at the Ashtabula Site and that these activities are under the jurisdiction of the Ohio Department
of Health. Based on the Office of General Counsel’s determination, the Office of Price-
Anderson Enforcement concluded that it would be at variance with DOE’s Price-Anderson
regulations to assert Price-Anderson enforcement jurisdiction at the Metals Plant. The Ohio
Field Office concurred with our recommendations and stated that DOE intends to recover all
related costs that may have been incurred by RMI while using DOE property. The Ohio Field
Office is also working with the State of Ohio to ensure nuclear safety compliance at Ashtabula.


Attachment

cc: Deputy Secretary
    Assistant Secretary for Environment, Safety and Health
    Assistant Secretary for Environmental Management
    General Counsel
    Director, Office of Price-Anderson Enforcement
    Manager, Ohio Field Office
INSPECTION OF NUCLEAR SAFETY AT THE ASHTABULA
ENVIRONMENTAL MANAGEMENT PROJECT




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective…………………………………. 1

              Observations and Conclusions……………………………. 2


              DETAILS OF FINDINGS…………………………………... 3

              RADIOLOGICAL ACTIVITIES………….………………… 3

                Molten Salt Oxidation Unit……………………………... 3

                Other Contaminated Items…….…..……..….………… 3

                Commercial Testing of Potentially
                 Contaminated Soil…………………..………………… 4

                Storage of Contaminated Equipment………….….….. 4


              RECOMMENDATIONS…………………………….…..….. 5


              MANAGEMENT/INSPECTOR COMMENTS………….… 6


              APPENDICES

              A. Scope and Methodology…………………………….…. 7

              B. Prior Reports……………………………………………. 8
Overview

INTRODUCTION                     The Office of Inspector General, U.S. Department of Energy
AND OBJECTIVE                    (DOE), identified issues relating to nuclear safety during a recent
                                 inspection of personal property management at DOE’s Ashtabula
                                 Environmental Management Project, located at the Ashtabula Site
                                 in Ashtabula, Ohio. The Ashtabula Site is owned by the RMI
                                 Titanium Company (RMI) and is comprised of two facilities, the
                                 Extrusion Plant and the Metals Plant. The two plants are located
                                 on opposite sides of a public highway running through the site.

                                 Between 1962 and 1988, DOE processed depleted and slightly
                                 enriched uranium at the Ashtabula Site’s Extrusion Plant. DOE is
                                 consequently funding decontamination and decommissioning
                                 activities at the Extrusion Plant. Due to the nature of the prior
                                 radioactive processing activities at the Extrusion Plant, the
                                 clean-up of the plant is regulated under a nuclear license issued by
                                 the Ohio Department of Health. This license only covers the
                                 Extrusion Plant and not the Metals Plant.

                                 Work performed at the Metals Plant is not covered by either a state
                                 or Federal nuclear license. Although DOE has periodically leased
                                 space from RMI at the Metals Plant for storage, neither DOE
                                 program offices nor commercial sponsors have supported
                                 radioactive processing work at the Metals Plant. During Office of
                                 Inspector General activities performed at the Ashtabula Site,
                                 however, it was determined that radioactive processing work has,
                                 in fact, occurred at the Metals Plant. It was also determined some
                                 of the work performed at the Ashtabula Site involved the use of
                                 DOE equipment by RMI to perform commercial work without
                                 DOE permission.1

                                 The purpose of this inspection, therefore, was to determine:

                                 •   In the absence of a nuclear license covering the Metals Plant,
                                     was radiological work conducted in accordance with DOE
                                     nuclear safety procedures; and

1
  In Inspection Report Number DOE/IG-0530, “Management of Personal Property at the Ashtabula Environmental
Management Project,” issued in November 2001, we noted that RMI was advertising Government equipment for
commercial disposal of potentially contaminated waste, and was also using Government laboratory equipment to
analyze samples for radioactivity under commercial contracts. This report is available on the DOE Office of
Inspector General Website at http://www.ig.doe.gov.




Page 1                                              Inspection of Nuclear Safety at the Ashtabula
                                                    Environmental Management Project
                   •   Whether RMI commercial work conducted with DOE
                       equipment occurred without a proper license and without
                       proper nuclear safety procedures in place.

OBSERVATIONS AND   We concluded that radiological work at the Metals Plant and
CONCLUSIONS        commercial work with DOE equipment was not covered by a
                   license or DOE nuclear safety procedures. A nuclear license or
                   procedures implementing DOE regulations is necessary and
                   required to promote nuclear safety. At Ashtabula, the question of
                   which safety requirement should have been in place, either a
                   nuclear license or DOE regulations, is unclear because RMI owns
                   the Ashtabula Site.

                   Therefore, we recommend that the Office of General Counsel
                   determine the applicability of DOE regulations at the Ashtabula
                   Site. We further recommend that the Office of Price-Anderson
                   Enforcement, which enforces DOE nuclear safety regulations,
                   determine whether DOE regulations have been violated at the site.
                   Finally, we recommend that the Manager, Ohio Field Office
                   address issues relating to compliance with nuclear safety
                   regulations and the use of DOE equipment to perform radiological
                   work.




Page 2                                             Observations and Conclusions
Details of Findings

RADIOLOGICAL          We identified DOE radiological work performed at the Ashtabula
ACTITIVIES            Site that was not covered by a nuclear license and did not have
                      approved DOE nuclear safety procedures. We were informed by
                      the DOE Assistant General Counsel for Civilian Nuclear Programs
                      that, based upon the Atomic Energy Act of 1954, that DOE has an
                      obligation to ensure the safety and health of the public and its
                      workers. He said that if a DOE activity requires regulation and a
                      nuclear license does not apply, then DOE regulations should be
                      applied and enforced. DOE nuclear safety procedures are
                      implemented based on DOE regulations, for example, Title 10,
                      Code of Federal Regulations (CFR), Part 830, “Nuclear Safety
                      Management,” and Title 10 CFR Part 835, “Occupational
                      Radiation Protection.”

                      Examples of radiological work performed at the Ashtabula Site
                      that are not covered by either a nuclear license or approved DOE
                      nuclear safety procedures are discussed below.

Molten Salt           In September 1997, a “scrap” mixed waste treatment device called
Oxidation Unit        a molten salt oxidation unit was received at the Ashtabula Site
                      from a private company and thought to be uncontaminated. The
                      unit was stored at the Metals Plant and later found to be
                      contaminated with Cesium.

                      DOE funding was allocated to decontaminate the molten salt
                      oxidation unit. An Ohio Field Office, Office of Compliance and
                      Support “issue paper” dated November 10, 1998, stated that the
                      then DOE Ashtabula Project Director declared the warehouse in
                      the Metals Plant where the molten salt oxidation unit was housed
                      “as DOE property” and “as such, DOE Orders . . . have authority
                      over any work performed.” Further, the then DOE Ashtabula
                      Project Director also requested that the then Manager of the Ohio
                      Field Office grant permission to proceed with the molten salt
                      oxidation unit work “under the authority of the Department of
                      Energy.” Although the Manager reportedly concurred with the
                      request, DOE nuclear safety regulations were never properly
                      implemented or procedures established at the Metals Plant. The
                      current DOE Ashtabula Project Director confirmed that DOE’s
                      nuclear safety regulations have never been implemented at
                      Ashtabula.

Other Contaminated    The issue paper referred to above also raised other concerns
Items                 regarding radiological work at the Ashtabula Site. The Office of
                      Compliance and Support had become concerned upon learning of




Page 3                                                              Details of Findings
                     three additional situations in which the then DOE Ashtabula
                     Project Director had requested DOE work be carried out on
                     radioactively contaminated items which were, or were potentially,
                     “outside the scope” of the nuclear materials license issued by the
                     State of Ohio. This work involved the receipt of “intermodal
                     containers” and “rail material” during mid-1998.

                     With respect to DOE regulations and their relationship to nuclear
                     licenses, the Assistant General Counsel for Civilian Nuclear
                     Programs issued Ruling 1995-1 (Section B.3), which stated that in
                     the absence of a license, DOE’s nuclear safety regulations at Title
                     10 CFR Parts 830 and 835 apply to DOE activities. However, as
                     mentioned earlier, DOE’s nuclear safety regulations were never
                     implemented at Ashtabula.

Commercial Testing   We also identified that radiological work conducted with DOE
of Potentially       equipment at the Extrusion Plant, the “licensed area” of the
Contaminated Soil    Ashtabula Site, was completed outside the scope of the license in
                     place at that time. This work involved RMI completing analyses
                     of contaminated off-site soil samples received from private
                     companies. We were told by an official with the Ohio Department
                     of Health, Bureau of Radiation Protection, that an amendment to
                     the RMI license dated August 24, 2000, authorized RMI to receive
                     and analyze radioactive samples. However, he stated that prior to
                     this amendment, RMI had not been authorized to conduct these
                     types of activities. Records obtained from RMI indicated that
                     radioactive analyses of off-site soil samples occurred as early as
                     February 1999, more than a year prior to authorization by the Ohio
                     Department of Health. These analyses were conducted using DOE
                     equipment without a nuclear license or DOE nuclear safety
                     procedures in place to assure radiological safety.

Storage of           In January 1999, a DOE waste water treatment plant contaminated
Contaminated         with radioactive material that was not covered under the Ashtabula
Equipment            nuclear license was received at the Ashtabula Site and stored at the
                     Metals Plant. The then DOE Director agreed with RMI to
                     “. . . pursue DOE Authority to store the WWTP [waste water
                     treatment plant] at the Metals Plant . . . .” However, a program to
                     comply with DOE regulations was never established and DOE
                     nuclear safety procedures never developed.




Page 4                                                              Details of Findings
                  Title 10 CFR Part 820, “Procedural Rules for DOE Nuclear
                  Activities,” would normally apply to decontamination and storage
                  activities like those described above at the Ashtabula Site. These
                  activities may have been contrary to Title 10 CFR 820, the stated
                  purpose of which is to “. . . promote and protect the radiological
                  health and safety of the public and workers at DOE facilities by
                  . . . ensuring compliance by DOE contractors with applicable DOE
                  Nuclear Safety Requirements.” However, the Ashtabula situation
                  is unclear because RMI owns the site. Therefore, we concluded
                  that the Office of General Counsel should determine the
                  applicability of DOE regulations. We further concluded that the
                  Office of Price-Anderson Enforcement, which enforces DOE
                  nuclear safety regulations, should determine whether DOE
                  regulations have been violated at the Ashtabula Site.

RECOMMENDATIONS   We recommend that the Office of General Counsel:

                  1. Determine whether DOE nuclear safety regulations are
                     applicable at the Ashtabula Site and take appropriate action.

                  We recommend that the Director, Office of Price-Anderson
                  Enforcement:

                  2. Determine if Title 10 CFR Part 820 applies to the radiological
                     activities conducted at the Metals Plant of the Ashtabula Site
                     and, if so, take appropriate action.

                  We recommend that the Manager, Ohio Field Office:

                  3. Take appropriate action regarding the issue of analyzing
                     potentially contaminated soil samples with DOE equipment
                     and without prior authorization by the Ohio Department of
                     Health.

                  4. Take actions necessary to prohibit DOE funding or DOE
                     equipment being used for radiological work in areas where
                     neither DOE nuclear safety regulations nor a nuclear materials
                     license is applicable.




Page 5                                                          Recommendations
MANAGEMENT   The extensive comments received from management are not
COMMENTS     included verbatim but are summarized below.

             With respect to recommendation 1, the Office of General Counsel
             (GC) determined that DOE nuclear safety requirements in Title 10,
             CFR Parts 830 and 835 did not cover contractual activities at the
             Ashtabula Site. Regarding recommendation 2, the Office of Price-
             Anderson Enforcement determined that Subpart D of 10 CFR 820
             places the responsibility for formulating and issuing interpretations
             concerning DOE’s nuclear safety rules with GC. Since GC
             determined that DOE nuclear safety requirements are not
             applicable at the Ashtabula Site, the Office of Price-Anderson
             Enforcement concluded that it would be at variance with DOE’s
             Price-Anderson regulations to assert Price-Anderson enforcement
             jurisdiction at the Metals Plant and is therefore taking no
             enforcement action.

             With respect to recommendations 3 and 4, the Ohio Field Office
             stated that DOE had directed RMI to cease the use of DOE
             property for any soil analysis actions. DOE intends to recover all
             related costs that may have been incurred, including
             reimbursement for the use of DOE property. Further, the Ohio
             Field Office stated that the contracting officer formally directed
             RMI to cease and desist any unauthorized use of DOE equipment.
             The contractor was placed on notice that prior written consent of
             an authorized representative of the Department would be needed
             for any future use of government equipment outside the scope of
             the Ashtabula Environmental Management Project contract.

INSPECTOR    Management’s comments are responsive to the recommendations.
COMMENTS




Page 6                                   Management/Inspector Comments
Appendix A

SCOPE AND     The fieldwork portion of this inspection involved the Ohio Field
METHODOLOGY   Office, the Ashtabula Environmental Management Project, and
              DOE Headquarters.

              This inspection was conducted in accordance with the Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency. As part of our inspection we interviewed
              officials at the Department’s Office of General Counsel, the Office
              of Price-Anderson Enforcement, the Ohio Field Office, and the
              Ashtabula Environmental Management Project. We also consulted
              with the Ohio Department of Health, Bureau of Radiation
              Protection. We reviewed pertinent records and documents
              pertaining to the Ashtabula Environmental Management Project’s
              nuclear safety program. Further, we reviewed related reports by
              the Office of Inspector General.




Page 7                                                Scope and Methodology
Appendix B

PRIOR REPORTS   In addition to this inspection, we previously issued:

                    •   Letter Report INS-L-01-05, on "Environment, Safety &
                        Health Issues at the Ashtabula Environmental
                        Management Project;"

                    •   Report DOE/IG-0530 on “Inspection of the Management
                        of Personal Property at the Ashtabula Environmental
                        Management Project;”

                    •   Audit Report DOE/IG-0541 on "Remediation and Closure
                        of the Ashtabula Environmental Management Project;" and

                    •   Audit Report DOE/IG-0542 on “Soil Washing at the
                        Ashtabula Environmental Management Project.”




Page 8                                                                  Prior Reports
                                                                    IG Report No. DOE/IG-0576

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
